September 29, 2000

PAUL E. VOGEL
ACTING VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

A. KEITH STRANGE
VICE PRESIDENT, PURCHASING AND MATERIALS

SUBJECT:	     Audit Report – Dedicated Christmas Air Network
              (Report Number TR-AR-00-011)

This report presents results from our audit of the Dedicated Christmas Air Network. The
audit provided a proposal to modify a Postal Service plan to selectively replace air
routes with highway routes during the Christmas holiday surge. The proposal identified
savings of nearly $41 million annually, or an estimated $204 million over 5 years, when
compared to 1999 Christmas operations. The audit also revealed the Postal Service
could save an additional $1.5 million annually or an estimated $7.7 million over 5 years
by purchasing, rather than leasing, air cargo containers and related equipment used by
the Christmas network. The report provided three recommendations to realize potential
cost savings. Management generally agreed with our recommendations. However,
they stated that the audit proposal to replace air routes with highway routes might
require more lenient operating parameters than the Postal Service plan. Nonetheless,
they agreed to further analyze the proposal for potential implementation during
Christmas 2001. Management’s comments and our evaluation of their comments are
included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Joseph Oliva,
director, Transportation, at (703) 248-2317 or me at (703) 248-2300.



Debra S. Ritt
Acting Assistant Inspector General
 for Business Operations

Attachment
cc: Anthony M. Pajunas
    J. Dwight Young
    John R. Gunnels
Dedicated Christmas Air Network                                     TR-AR-00-011



                                  TABLE OF CONTENTS
Executive Summary
                                                      i


Part I


Introduction
                                                          1

 Background                                                            1
 Objectives, Scope, and Methodology                                    1


Part II

Audit Results                                                          2


 Trucks Versus Planes                                                  2

 Recommendation                                                        4
 Management’s Comments                                                 4

 Evaluation of Management’s Comments                                   4


 Lease Versus Purchase of Air Cargo Containers and Related             5

 Equipment 

 Recommendations                                                       6
 Management’s Comments                                                 6

 Evaluation of Management’s Comments                                   6


Appendix A. Cost Comparison of Air-Surface Transportation Options      7


Appendix B. Lease Versus Purchase of Air Cargo Containers and         13     

            Related Equipment 


Appendix C. Management’s Comments                                     14 

Dedicated Christmas Air Network                                                   TR-AR-00-011



                                  EXECUTIVE SUMMARY
Introduction                 The Postal Service established a special, contractor-
                             operated, dedicated Christmas air network to handle the
                             surge of Priority Mail during the Christmas season. The
                             network used air and highway transportation. During 1999,
                             the network operated for 11 days, and during Christmas
                             2000, the Postal Service is planning to operate the network
                             for 14 days. In 1999, the holiday surge cost more than
                             $137 million. Based upon these results, the cost of
                             Christmas 2000 operations is projected to exceed
                             $174 million. Postal Service management requested that
                             we assess the plan for the Christmas 2000 network to
                             identify opportunities for cost savings.

Results in Brief             Our audit revealed the Postal Service could save nearly
                             $41 million annually, or $204 million over five years, by
                             selectively replacing air routes with highway routes. Postal
                             Service managers wanted to reduce costs and were actively
                             considering a plan to save $33 million dollars annually by
                             transferring mail to highway routes and bypassing
                             Christmas hubs. We analyzed management’s plan and
                             considered their estimated savings to be reasonable.
                             However, we offered an alternative, which did not bypass
                             hubs. Instead, it selectively replaced air routes between
                             origin and hub, or hub and destination. We concluded that
                             our plan would increase annual savings to $41 million.

                             Our audit also revealed that Postal Service management
                             could save an additional $1.5 million annually, or
                             $7.7 million over five years, by buying, rather than leasing,
                             air cargo containers and related equipment used by the
                             Christmas network.

Summary of                   We recommend the vice president, Network Operations
Recommendations              Management, adjust the mix between air and highway
                             transportation to coincide with demonstrated service
                             achievement during the Christmas surge, in order to
                             implement the air-ground mix that optimizes cost savings.
                             We also recommend that the vice president, Purchasing
                             and Materials, purchase required air cargo containers and
                             related equipment. He should also perform cost analyses in
                             support of future capital equipment lease versus purchase
                             selections.




                                               i
Dedicated Christmas Air Network                                                TR-AR-00-011



Summary of                   Management generally agreed with our recommendations.
Management’s                 However, they stated that the audit proposal to replace air
Comments                     routes with highway routes is based on more lenient
                             operating parameters than the Postal Service plan.
                             Nonetheless, they agreed to further analyze the proposal for
                             potential implementation during Christmas 2001.
                             Management’s comments, in their entirety, are included in
                             Appendix C of this report.

Overall Evaluation of        Management’s comments were responsive to our findings
Management’s                 and recommendations, and planned actions should correct
Comments                     the issues identified in this report.




                                              ii
Dedicated Christmas Air Network                                                TR-AR-00-011



                                     INTRODUCTION
Background                   The Postal Service established a special, contractor-
                             operated, dedicated Christmas air network to handle the
                             surge of Priority Mail during the Christmas season. The
                             network, which utilizes air and highway transportation, was
                             designed to deliver Priority Mail within service parameters
                             and before Christmas. It has three hubs chosen for
                             geographic and strategic significance: Ontario, California;
                             Blytheville, Arkansas; and Indianapolis, Indiana. Network
                             supervision was provided by Postal Service employees
                             temporarily detailed from locations across the country.
                             During 1999, the network operated for 11 days. During
                             Christmas 2000, the Postal Service plans to operate the
                             network for 14 days. The 1999 holiday surge costs more
                             than $137 million. Based upon these results, the Christmas
                             2000 operations are projected to exceed $174 million for the
                             14-day period.

Objective, Scope, and        The audit objective was to assess the Christmas 2000 plan
Methodology                  to identify opportunities for cost savings.

                             During our audit, we visited Postal Service Headquarters
                             and the three network hubs. We observed operations,
                             interviewed Postal Service and contractor personnel, and
                             performed time and mail flow studies. We also evaluated
                             the balance between highway and air routes, performed a
                             comparative cost analysis contrasting leased versus
                             purchased equipment, and performed tests to ascertain the
                             reliability of data.

                             We conducted our audit between November 1999 and
                             September 2000 in accordance with generally accepted
                             government auditing standards, and included such tests of
                             internal controls as were considered necessary under the
                             circumstances. We discussed our findings with appropriate
                             management officials, and included their comments, where
                             appropriate.




                                              1
Dedicated Christmas Air Network                                                 TR-AR-00-011



                                     AUDIT RESULTS
Trucks Versus Planes The Postal Service can save nearly $41 million annually,
                     and achieve estimated five-year savings of $204 million, by
                     selectively replacing air routes with highway routes. During
                     our audit, Postal Service managers stated that air carrier
                     delays during the holiday season routinely caused Priority
                     Mail to be delivered beyond the standard two-day window.
                     Postal Service performance records revealed that during the
                     Christmas surge, the two-day performance standard was
                     not achieved 44 percent of the time. Postal management
                     pointed out that if the Postal Service recognized one-day
                     holiday surge delays as unavoidable, substantial savings
                     could be captured by transferring some mail to highway
                     routes. Consequently they analyzed various air-ground mix
                     alternatives. As a framework for analysis, managers
                     established the following parameters:

                             h    Delivery standards, as well as delivery before
                                  Christmas, were to be considered. Selected markets
                                  would be served within a three-day instead of the
                                  traditional two-day delivery window.

                             h    Routes under consideration for replacement service
                                  were to be less than 1,700 miles; the maximum
                                  distance that would still allow a three-day delivery
                                  window.

                             Management’s principal alternative was to selectively move
                             mail by truck directly from origin to destination and bypass
                             Christmas hubs. We evaluated this plan within the
                             parameters management established, and estimated the
                             plan would save more than $33 million annually.

                             We identified an approach that does not bypass Christmas
                             hubs but would increase savings to an estimated $41 million
                             annually. This approach selectively replaces air routes with
                             truck routes between origin and hub, or hub and destination.

                             Both management’s plan and the Office of Inspector
                             General (OIG) plan are similar in that both selectively
                             replaced air routes with highway routes to more closely
                             align with demonstrated service achievement during the
                             Christmas surge. Both plans assume that costs of services
                             provided by air carriers and trucking companies will remain



                                               2
Dedicated Christmas Air Network                                                                           TR-AR-00-011



                             at current levels. The major difference is that the OIG plan
                             allows more air routes to be converted. For example, as
                             shown in the figure below, the air route between Atlanta and
                             Phoenix could not be converted under the management
                             plan because the route is longer than 1,700 miles.
                             However, under the OIG plan, the Blytheville hub breaks the
                             total distance into two shorter segments and allows
                             significant savings to be achieved, while still maintaining
                             three-day delivery.




                                            ATLANTA TO BLYTHEVILLE: 469 MILES
                                            •


                                            BLYTHEVILLE TO PHOENIX: 1,536 MILES
                                            •


                                            COMBINED DISTANCE:      2,005 MILES

                                            •   ATLANTA TO PHOENIX:        1,834 MILES

                                                           PHOENIX                     •   BLYTHEVILLE
                                                                                             •
                                                       •



                                                             •
                                                                                   •   ATLANTA    •



                                                                                   COST PER AIR
                                   PLAN                          ROUTING                                   SAVINGS
                                                                                 CARGO CONTAINER

                                                      AIR SERVICE FROM
                                                         ATLANTA TO
                              STATUS QUO                                                         $4,786      $0
                                                       BLYTHEVILLE TO
                                                           PHOENIX

                                                                                    NOT FEASIBLE
                                                                                       UNDER
                                  POSTAL             ATLANTA TO PHOENIX
                                                                                    MANAGEMENT               $0
                                  SERVICE               VIA HIGHWAY
                                                                                  DISTANCE OR TIME
                                                                                    PARAMETERS

                                                      HIGHWAY SERVICE
                                                      FROM ATLANTA TO
                                    OIG                                                          $4,177     $609
                                                    BLYTHEVILLE THEN AIR
                                                     SERVICE TO PHOENIX




                             While the above figure provides only an illustrative example,
                             detailed analysis of the entire network provides similar
                             results. We discussed our plan with managers responsible
                             for Christmas operations, who commented favorably and
                             agreed to study specifics. The following table provides a
                             summary comparison of the two plans. A detailed
                             comparison is in Appendix A.




                                                              3
Dedicated Christmas Air Network	                                                                     TR-AR-00-011




                                                        PLAN COMPARISON


                                            PLAN                   DELIVERY                SAVINGS


                                        STATUS QUO                 2-3 DAYS*             $ 0 MILLION


                                      POSTAL SERVICE                2-3 DAYS             $33 MILLION


                                          OIG PLAN                  2-3 DAYS             $41 MILLION


                                   * Postal Service performance records for the 1999 holiday surge reveal
                                   the 2-day delivery standard was not achieved 44 percent of the time.



Recommendation	               We recommend the vice president, Network Operations
                              Management:

                              1. Adjust the mix between air and highway transportation to
                                 coincide with demonstrated service achievement during
                                 the Christmas surge, in order to implement the
                                 air-ground mix that optimizes cost savings.

Management’s                  Management agreed with our recommendation and stated
Comments                      that they had taken steps to more closely align
                              transportation costs with service actually achieved during
                              Christmas 1999. However, management indicated the air-
                              ground mix developed by the OIG might require more
                              lenient operating parameters than the Postal Service plan.
                              Nonetheless, management agreed to further analyze the
                              OIG proposal for potential implementation during Christmas
                              2001.

Evaluation of                 Management’s comments were responsive to our
Management’s                  recommendations, and planned actions should correct the
Comments                      issues identified in this report.




                                                    4
Dedicated Christmas Air Network	                                                      TR-AR-00-011




Lease Versus                  The Postal Service can save an additional $1.5 million
Purchase of Air               annually, and achieve an estimated 5-year savings of
Cargo Containers              $7.7 million, by purchasing, rather than leasing, air cargo
and Related                   containers and dollies. A-2 containers are large containers
Equipment                     specifically designed for loading airplanes. Dollies are large
                              carts used to move A-2 containers while they are on the
                              ground. In 1999, the Postal Service leased
                              1,266 containers and 1,679 dollies for the Christmas surge.
                              Our audit revealed the Postal Service did not perform cost
                              analysis in support of leasing decisions associated with
                              Christmas operations. This analysis was not completed
                              because the Postal Service did not have capital funds to
                              purchase A-2 containers for the 1999 operation.

                              During the audit we discussed the purchase of containers
                              with management and they began an analysis to determine
                              potential savings. Based on our analysis, the Postal Service
                              could save $1.5 million annually by purchasing containers
                              and dollies. The analysis also revealed that investment risk
                              was low because equipment life expectancy is about
                              15 years, while the time required to recover the investment
                              is about 3.2 years for containers, and 5.5 years for dollies.
                              Our analysis is discussed in Appendix B.

                              We acknowledge that if different model planes become
                              more heavily used in the future, other than the Boeing 727’s
                              commonly used at this time, A-2 containers may not fully
                              utilize the space available on those planes. These
                              containers also may not maximize the utilization of space
                              available on trailers, as compared to the bed-loading
                              method. However, there are several collateral benefits to
                              purchasing rather than leasing:

                              h	 The Postal Service does not have sufficient containers
                                 or dollies to support the surface-oriented network
                                 suggested by the OIG. If the Postal Service
                                 implemented that alternative, savings would be more
                                 substantial.

                               •	   A-2 containers owned by the Postal Service would be
                                    distinctively identified with highly visible Postal Service
                                    logos and markings—and would not be easily lost.
                                    During 1999, 51 A-2 containers were unaccounted for
                                    and represent a potential loss of more than $81,000.



                                                  5
Dedicated Christmas Air Network	                                                    TR-AR-00-011




                              h	 The pool of potential Christmas operations contractors
                                 is restricted to those who can provide A-2 containers.
                                 If the Postal Service owned the required containers, the
                                 pool of available contractors would be expanded and
                                 the competitive environment enhanced.

Recommendations	              We recommend that the vice president, Purchasing and
                              Materials:

                              2.	   Purchase required A-2 containers and dollies.

                              3. 	 Perform cost analyses in support of future capital
                                   equipment lease vs. purchase selections.

Management’s                  Management agreed with our recommendations. They
Comments                      stated that the Postal Service might benefit financially from
                              owning containers and displaying the Postal Service logo on
                              those containers, and agreed to perform the analysis we
                              recommended before making the decision whether to lease
                              or purchase air containers. In addition, they noted that the
                              outcome might be impacted if 727 aircraft were taken out of
                              service and replaced with newer models.

Evaluation of                 Management’s comments were responsive to our findings
Management’s                  and recommendations, and planned actions should correct
Comments                      the issues identified in this report.




                                                6
Dedicated Christmas Air Network                                                                 TR-AR-00-011



                                             APPENDIX A
COST COMPARISON OF AIR-SURFACE TRANSPORTATION OPTIONS
Cost Comparison                 Costs for             OIG Proposal                    USPS HQ Proposal
(Millions of dollars)             1999                  (Option 1)                       (Option 2)
Period Length1                     11                11            14                   11               14
Cash Operating Costs
                                  $43.3             $26.5            $33.8
CNB
Cash Operating Costs
                                   25.7              17.7            22.6
CNI (less PMPC)
Cash Operating Costs                                                                Analysis
                                   22.3              17.9            22.8                             Detailed
CNW                                                                               Performed by
                                                                                                    Analysis Not
Cash Operating Costs                                                                 USPS
                                    5.5              4.7              6.0                            Performed
of PMPC Amendment                                                                  Managers
Cash Operating Costs
                                   24.9              22.7            28.9
of XSEGs
Other Operating Costs
                                   15.5              15.5            19.7
Including DAP
Total Operating Costs             $137.2           $105.0           $133.8           $111.0           $141.32
One Year Calculated
                                     0             $32.23           $40.84           $26.23            $33.34
Savings
Five Year Calculated
                                     0             $161.0           $204.0           $131.0            $166.5
Savings
1
 14-days of service proposed by a Postal Service manager at Bolger Wrap-up Conference on March 2, 2000.
2
 Total costs for 14-days of service determined by multiplying total cost of 11 days of service by the ratio
14/11: Total Cost for 11 days service / 11 days x 14-days. ($111 / 11 x 14 = $141.3)
3
  Total Operating Costs ’99 less Option’s Expected Operating Costs.
4
 Total costs of 14-days of service (determined by multiplying total cost of ’99 by the ratio 14/11: $137.2 / 11 x
14 = $174.6) less Option’s Expected Operating Costs.

Decision Matrix                            Current                 Option 1                      Option 2
Savings                                      $0                     $40.8M                       $33.3M
Service                                       1                        2                            3
Control of Mail                               3                        1                            2
Flexibility                                   2                        1                            3
Ease of Design                                1                        2                            3
Ease of Implementation                        2                        1                            3
                                                               Greatest Monetary
Decision:                                                       Savings and the
                                                                Highest Rated.

Rating Scale:
       1 – First Preference
       2 – Second Preference
       3 – Third Preference




                                                      7
Dedicated Christmas Air Network                                                      TR-AR-00-011




                                       Hub Blytheville
                                                    Cost of         Cost of Ground
                                        A2s
 Spoke             Location                        Segment              Trans.
                                       Daily
                                                     A2s X $6,097     A2s X $724
 ATL              Atlanta, GA             18        $109,746           $13,032
 CLT             Charlotte, NC           36         219,492            26,064
 DFW         Dallas, Ft. Worth, TX        26        158,522             18,824
 DSM            Des Moines, IA            11         67,067             7,964
 IAD              Dulles, VA              12          73,164             8,688
            Houston G. Bush Intl.
 IAH                                     23
                  Airport, TX                       140,231             16,652
 JAX           Jacksonville, FL            8          48,776             5,792
 MCI        Kansas City Intl Airport      12          73,164             8,688
 MCO       Orlando Intl. Airport, FL      35         213,395            25,340
 RIC        Rich-Williamsburg, VA         18         109,746            13,032
 MSP      Minneapolis / St. Paul, MN      11          67,067             7,964
 MSY           New Orleans, LA            12         73,164              8,688
 OMA              Omaha, NE               8          48,776              5,792
              O’Hare Intl. Airport
 ORD                                     18
                  Chicago, IL                       109,746             13,032
 SAT           San Antonio, TX            18         109,746            13,032
 TPA      Tampa-St. Petersburg, FL        18        109,746             13,032
          Total Cost Air Segments:                 $1,731,548
              Total Cost of Ground Transportation;                     $205,616
                      Total Savings per Day:
     Total Cost Air Segments – Total Cost Ground Trans. =            $1,494,056
 Total Savings over 11 Days: 11 days x Total Savings per Day =       $16,434,616


                       Cost for Blytheville ’99:                     $43,328,822
Less Total Cost of Air Segment Being Replaced: $1,731,548 x 11 =     -19,047,028
            Plus Cost of Replacement Ground Service:
                Total Cost of Ground Trans. x 11 =                    2,261,776
              Option 1: Cost for 11 Days of Service:                 $26,543,570

               Cost for ’99: $43,328,822 x 14/11 =                   $55,145,773
         Less Total Cost of Air Segments Being Replaced:
                         $1,731,548 x 14 =                           -24,241,672
            Plus Cost of Replacement Ground Service:
               Total Cost of Ground. Trans. x 14 =                    2,878,624
              Option 1: Cost for 14 Days of Service:                 $33,782,725




                                                 8
Dedicated Christmas Air Network                                                          TR-AR-00-011




                                        Hub Indianapolis
                                                     Cost of            Cost of Ground
                                         A2s        Segment                 Trans.
 Spoke              Location
                                         Daily
                                                        A2s X $5,521      A2s X $724
         Hartfield-Atlanta Int’l
  ATL                                       18
         Airport, GA                                         $99,378           $13,032
         Logan Int’l Airport,
 BOS                                        12
         Massachusetts                                        66,252             8,688
         Baltimore Wash Int’l
 BWI                                        18
         Airport, MD                                          99,378            13,032
         Charlotte Douglas Int’l
 CLT                                        12
         Airport, NC                                          66,252             8,688
 EWR     Newark Int’l Airport, NJ            8                44,168             5,792
         John F Kennedy Int’l
 JFK                                        12
         Airport, NY                                          66,252             8,688
 MSP     Minneapolis St. Paul, MN           12                66,252             8,688
 MSP     Minneapolis St. Paul, MN           12                66,252             8,688
         New Orleans Int’l Airport,
 MSY                                        18
         LA                                                   99,378            13,032
         Philadelphia Int’l Airport,
 PHL                                        12
         PA                                                   66,252             8,688
 ORF     Norfolk Int’l Airport, VA           8                44,168             5,792
         Dallas Ft. Worth Int’l
 DFW                                        10
         Airport, TX                                          55,210             7,240
                      Total Cost Air Segments:              $839,192
                                 Total Cost of Ground Transportation;         $110,048
                                               Total Savings per Day:
            Total Cost Air Segments – Total Cost Ground Trans. =             $729,144
   Total Savings over 11 Days: 11 days x Total Savings per Day =            $8,020,584


                                                        Cost for ’99:      $25,748,658
  Less Total Cost of Air Segments Being Replaced: $838,192 x 11 =           -9,220,112
                          Plus Cost of Replacement Ground Service:
                                 Total Cost of Ground Trans. x 11 =          1,210,528
                               Option 1: Cost for 11 Days of Service:      $17,739,074

                                Cost for ’99: $25,748,658 x 14/11 =        $32,771,019
  Less Total Cost of Air Segments Being Replaced: $838,192 x 14 =          -11,734,688
                          Plus Cost of Replacement Ground Service:
                                 Total Cost of Ground Trans. x 14 =          1,540,672
                               Option 1: Cost for 14 Days of Service:      $22,577,003




                                                    9
Dedicated Christmas Air Network                                                          TR-AR-00-011




                                           Hub Ontario
                                                                        Cost of Ground
                                         A2s      Cost of Segment
 Spoke              Location                                                Trans.
                                         Daily
                                                     A2s X $6,784         A2s X $724
  DEN     Denver Int’l Airport, CO          12               $81,408            $8,688
          Albuquerque Int’l Airport,
  ABQ                                       12
          NM                                                  81,408             8,688
  SLC     Salt Lake City, UT                12                81,408             8,688
          Metro Oakland Int’l Airport,
  OAK                                       18
          CA                                                 122,112            13,032
  SAN     San Diego Int’l Airport, CA
                                            12
  DEN     Denver Int’l Airport, CO                            81,408             8,688
                      Total Cost Air Segments:              $447,744
                                 Total Cost of Ground Transportation;          $47,784
                                               Total Savings per Day:
           Total Cost Air Segments – Total Cost of Ground Trans. =           $399,960
    Total Savings over 11 Days: 11 days x Total Savings per Day =           $4,399,560


                                                       Cost for ’99:       $22,314,070
  Less Total Cost of Air Segments Being Replaced: $447,744 x 11 =           -4,925,184
                              Cost of Replacement Ground Service:
                                   Total Cost Ground. Trans. x 11 =            525,624
                              Option 1: Cost for 11 Days of Service:       $17,914,510

                                Cost for ’99: $22,314,070 x 14/11 =        $28,399,725
  Less Total Cost of Air Segments Being Replaced: $447,744 x 14 =           -6,268,416
                              Cost of Replacement Ground Service:
                                   Total Cost Ground Trans. x 14 =             668,976
                              Option 1: Cost for 14 Days of Service:       $22,800,285




                                                   10
Dedicated Christmas Air Network                                                      TR-AR-00-011




     PMPC                     Available Space on Emery Dayton Network
                                                           Total   Cost of Ground
    Spoke                        Location                   A2s        Trans.
                                                          moved      A2s X $724
   BWI-MIA        Balt-Wash – Miami                          33            $23,892
   DEN-PIT        Denver-Pittsburgh                          10              7,240
   IAD-MIA        Dulles-Miami                               30             21720
  MKE1-MIA        Mitchell Field, WI – Miami                 11               7964
  MSP-MCO         Minneapolis/St.Paul – Orlando              11               7964
  MSP-EWR         Minneapolis/St.Paul - Newark               22             15928
  MSP-JFK         Minneapolis/St.Paul – New York, NY         11               7964
 ORD-FLL/MIA      Chicago – Ft. Lauderdale                   75             54300
ORD-MCO/HSV       Chicago – Orlando                          9                6516
ORD-TPA/MCO       Chicago – Tampa                            18             13032
  ORD-MCO         Chicago – Orlando                         101             73124
                            Total number of containers:     331
                                                Total Cost Ground:       $239,644

                                     Total Cost Air: $2,950 x 331 =      $976,450
                                            Less Total Cost Ground:      -239,644
                              Savings Over Entire Period (11 days):
                               Total Cost Air – Total Cost Ground =      $736,806

            Savings Per Day: Savings Over Entire Period / 11days =        $66,982

                                                Cost for PMPC ’99:     $5,428,000
                     Less Total Cost of Containers Being Replaced:       -976,450
                             Cost of Replacement Ground Service:          239,644
                       Option 1: PMPC Cost for 11 Days of Service:     $4,691,194

                       Option 1: PMPC Cost for 14 Days of Service:
                              Cost for 11 Days of Service x 14/11 =    $5,970,611




                                                  11
Dedicated Christmas Air Network                                                           TR-AR-00-011




                                         Various Air Taxis
                                                                           Cost to go
                                                                            ground
                                    A2s      Days
 Spoke           Location                                 Cost ‘99           A2s X
                                    Daily    Used
                                                                          Days Used X
                                                                             $724
 DEN      Denver
                                       23     14*
 BIL      Billings, MT                                     $341,754           $233,128
 SEA      Seattle
                                        8      11
 DEN      Denver                                            501,605             63,712
 SLC      Salt Lake City
 IND      Indianapolis
                                      18?      10
 ORD      Chicago
 SLC      Salt Lake City                                    743,838            130,320
 SLC      Salt Lake City
                                      18?       6
 IND      Indianapolis                                      832,495             78,192
 SLC      Salt Lake City
 IND      Indianapolis
                                      18?       4
 ORD      Chicago
 SLC      Salt Lake City                                    297,000             52,128
                       Total Cost of Air Segments:       $2,716,692
                                Total Cost of Ground Transportation:          $557,480
                                              Total Savings over ’99:
               Total Cost Air Segments – Total Cost Ground Trans. =          $2,159,212

                                                Cost for Air Taxis ’99:     $24,893,290
                  Less Total Cost of Air Segments Being Replaced:            -2,716,692
                         Plus: Cost of Replacement Ground Service:              557,480
            Option 1: Air Taxis’ Cost During the 11-Day Core Period:        $22,734,078

     Option 1: Air Taxis’ Cost Calculated for a 14-Day Core Period**:
                                Cost for 11 Days of Service x 14/11 =       $28,934,281

* - Exceeds the 11-day core period for 1999 operations.

** - Assumes Air Taxis’ (XSEG) “Days Used” would vary in proportion to the season length.





                                                    12
Dedicated Christmas Air Network                                                             TR-AR-00-011



                                         APPENDIX B

        LEASE VERSUS PURCHASE OF AIR CARGO CONTAINERS
                   AND RELATED EQUIPMENT
                           Annual         Total           Annual      Total
                          Ownership      Annual           Lease       Lease       Annual
Description    Quantity   Cost/Unit       Cost           Cost/Unit    Cost        Savings

    A2
                1,266             $396   $501,336           $1,121   $1,419,621    $918,285
 Containers
   Dollies      1,679              174    292,060             541      908,744      616,684

   Total                                                                          $1,534,969




                                                    13
Dedicated Christmas Air Network                       TR-AR-00-011



                  APPENDIX C. MANAGEMENT'S COMMENTS




                                  14
Dedicated Christmas Air Network        TR-AR-00-011




                                  15
Dedicated Christmas Air Network        TR-AR-00-011




                                  16
